HHS/OIG, Audit -"Review to Increase the Number of Non-Custodial Parents
Providing Medical Support To Their Children and Reduce
Medicaid Costs in Texas,"(A-06-02-00053)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review to Increase the Number of Non-Custodial Parents Providing Medical
Support To Their Children and Reduce Medicaid Costs in Texas," (A-06-02-00053)
June 20, 2003
Complete
Text of Report is available in PDF format (940 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to identify the number of children who received
Medicaid benefits from Texas, during the period June 1, 2001 through May 31, 2002,
because their non-custodial parent (NCP) could not provide court ordered medical
support because it was not available or too costly.  We estimate 86,011 children
received Medicaid benefits during the period June 1, 2001 through May 31, 2002
because their NCP could not provide court ordered medical support.  Of these
86,011 children, we estimate that 60,271 had NCPs who could, however, have been
able to contribute $16.6 million towards Medicaid costs totaling $36.9 million
incurred by the State and Federal Government on behalf of these children.
In 2001, the Texas Legislature strengthened its provisions for health care coverage
by requiring the court to order the custodial parent to apply for benefits under
either the Medicaid program or the State child health plan if neither parent had
access to private health insurance at a reasonable cost.  In addition, the
court must order that the NCP contribute cash medical support payments for actual
costs of their child's participation in such program.  Court orders written
under prior Texas law did not require NCPs to contribute towards Medicaid costs
when private health insurance was not available.  We recommended that Texas
ensure medical support orders written under prior laws, for children receiving
Medicaid benefits, are revised as they come up for modification to require NCPs
to contribute towards Medicaid costs paid on behalf of their children.  State
IV-D officials agreed with our recommendation.